                                         NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS

                                    CLOSEOUT MEMORANDUM




We received an allegation that the subject's' NSF proposal2 contained a request for funds that
appeared to be inappropriate. The subject indicated in the proposal that he was a full-time faculty
member at a foreign university3 as well as a faculty member with status at a U.S. institution4from
which the proposal was submitted. Further, he stated that although his appointment at the foreign
institution was permanent, he spent every other summer at the U.S. institution. In his proposal, he
requested funds for three-consecutive years of summer salary and travel expenses (domestic and
foreign travel). Neither request seemed appropriate given the work-schedule and salary information

We wrote to subject whose responses provided us documentation and other information to resolve
this matter. He also indicated that he planned to terminate his association with the U.S. institution
and work full-time at the foreign institution.
This case is closed and no further action will be taken.




                                                                                       OIG Form 2 (2102)
